Siw
I

C@OCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 .

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 20-1779

CARLOS A. MORALES-VAZ.QUEZ,
Petitioner,
¥..
OPTIMA SEGUROS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
ISSUANCE OF WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 8117 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

| GENERAL NOTARY-State of Nebraska Zz. a Z s,
RENEE J. GOSS 9. ( Leda %
u My Comm. Exp. September 5, 2023

Notary Public Affiant 41278
